GR-80-98-038
U.S. DEPARTMENT OF JUSTICE

 
Audit Report
 
Office of Community Oriented Policing Services
Ouachita Parish, Louisiana,
Sheriff's Department
 
GR-80-98-038
September 21, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Ouachita Parish Sheriff's Department in Monroe,
Louisiana. Ouachita Parish received a grant of $374,917 to hire six deputies under the
Accelerated Hiring, Education, and Deployment (AHEAD) program, $624,863 to hire ten
deputies under the Universal Hiring Program (UHP), and $4,050 under the Troops to COPS
Program. The purpose of the AHEAD and UHP grants was to hire additional officers to
enhance community policing efforts and the purpose of the Troops to Cops grant was to
reimburse the parish for training costs incurred for hiring a qualified veteran as a
deputy.
Generally, Ouachita Parish properly managed the COPS grants; however, we found the
following discrepancies with regard to meeting the grant conditions:


- Total proposed costs in both the AHEAD and UHP grant applications were in excess of
    the actual salaries and benefits paid. This resulted in the grant awards being overfunded
    by $101,665. 
- Retirement benefits decreased from 6 percent to 5 percent. This caused reimbursement
    requests to be overstated by $1,145. 
- A retention plan was not developed for continuing the employment of the grant-funded
    deputies at the end of the grant period. 
- The Financial Status Reports did not accurately reflect the actual expenses of
    Ouachita Parish for the deputies hired under the COPS grants.


#####